      FOOD AND NUTRITION SERVICE
  CHILD AND ADULT CARE FOOD PROGRAM
   REVIEW OF STATE AGENCY OVERSIGHT
          STATE OF CALIFORNIA
       AUDIT REPORT NO. 27601-6-SF

              MARCH 1999




UNITED STATES DEPARTMENT OF AGRICULTURE
   OFFICE OF INSPECTOR GENERAL - AUDIT
             WESTERN REGION
      600 HARRISON STREET, SUITE 225
         SAN FRANCISCO, CA 94107
                   UNITED STATES DEPARTMENT OF AGRICULTURE
                              OFFICE OF INSPECTOR GENERAL
                                     Western Region - Audit
                                  600 Harrison Street, Suite 225
                              San Francisco, California 94107-1370
                             TEL: 415-744-2851 FAX: 415-744-2871



   DATE:   March 16, 1999

REPLY TO
ATTN OF:   27601-6-SF

SUBJECT:   Child and Adult Care Food Program
           Review of State Agency Oversight
           State of California

     TO:   Allen Ng
           Regional Administrator
           Western Region
           Food and Nutrition Service


This report presents the results of our audit of the State of California
oversight of the Child and Adult Care Food Program. Your written response to the
draft report is included as exhibit F to the report. For acceptance of your
management decisions on the report’s recommendations, please provide the
information described in the OIG Position sections of the report.

In accordance with Departmental Regulations 1720-1, please furnish a reply within
60 days describing the corrective action taken or planned and the timeframes for
implementation of these recommendations.      Please note that the regulation
requires a management decision to be reached on all findings and recommendations
within a maximum of 6 months from report issuance.

The Office of the Chief Financial Officer (OCFO), U.S. Department of Agriculture,
has responsibility for monitoring and tracking final action for the findings and
recommendations. Follow your internal agency procedures in forwarding final
action correspondence to OCFO.

We appreciate the cooperation and assistance provided by your staff during our
audit.




SAM W. CURRIE
Regional Inspector General
  for Audit
          EXECUTIVE SUMMARY
       FOOD AND NUTRITION SERVICE
  CHILD AND ADULT CARE FOOD PROGRAM
   REVIEW OF STATE AGENCY OVERSIGHT
           STATE OF CALIFORNIA
      AUDIT REPORT NO. 27601-6-SF



                           This report presents the results of
                           our   review   of  the    State   of
PURPOSE                    California’s oversight of the Child
                           and   Adult   Care   Food    Program
                           (CACFP).     Our purpose was to
determine why the State’s oversight function had not detected
and prevented the significant program abuses by CACFP sponsors
that had been disclosed in a series of OIG audits and
investigations.

Due to the serious problems found in the CACFP in California
we are issuing this report at this time to alert the Food and
Nutrition Service (FNS) that it needs to increase its
oversight and presence in the State to ensure that the State
agency is capable of restoring integrity to the CACFP. We
plan to issue additional State agency reports including a
review of 2-percent fund expenditures charged to the CACFP by
the State agency and a review of the quality of the audit and
review work conducted by the State agency.

In California, the FNS Western Regional Office administers the
program through an agreement with the California Department of
Education (CDE). Program regulations require CDE to provide
sufficient consultative, technical, and managerial personnel
to administer the program, provide sufficient technical
assistance to institutions, and monitor performance to
facilitate operation of the program.          CDE’s oversight
responsibilities include reviewing and approving sponsors’
budgets, conducting administrative reviews of sponsor
activities, and conducting audits or reviewing audit reports
conducted by independent CPA firms.

As of February 16, 1999, we had in process or had completed
audits or investigations of 10 sponsors of providers and day
care centers participating in the CACFP. These sponsors were
selected for review based on a problem sponsor profile we
developed and referrals from FNS, CDE, or other sources
(whistleblower complaints, audit leads, etc.) In FY 1996, the
10 sponsors received about 20 percent of California CACFP




                    - i -
     funds expended for provider/center meal reimbursement, program
     administration, and cash in lieu of commodities.

                              Based on our completed and ongoing
                              audits   and    investigations,   we
RESULTS IN BRIEF              concluded    that   CDE   has   been
                              negligent in its administration of
                              the CACFP.       We found a high
    incidence of fraud and abuse in the program in California.
    Some cases we investigated have already resulted in
    prosecutions and the sentencing of the sponsor officials. In
    one case, a Field Services Unit manager for CDE was directly
    involved in the fraud.     We concluded that FNS needs to
    increase its presence in the State program to ensure that the
    CDE is capable of restoring integrity to the CACFP.

     We found serious program irregularities at all 10 sponsors we
     reviewed. These irregularities included submission of false
     information to the State agency, failure to maintain adequate
     records, failure to disburse payments to facilities in
     accordance with management plans, and various schemes to
     divert program funds to the personal enrichment of the
     sponsors.

     It was CDE’s responsibility to review the activities of
     sponsors and to enforce compliance with program regulations.
     CDE was required to declare that non-compliant sponsors were
     seriously deficient and terminate the sponsor from the program
     if the sponsor could not bring the program into compliance.
     CDE had not found any of the ten sponsors to be seriously
     deficient. However, we concluded that all 10 sponsors were
     seriously deficient, and to date four have been terminated as
     a result of our work.

     Eight of the ten sponsors also have been or are being
     investigated for program fraud.        Suspected fraudulent
     activities include charging ineligible costs to the program,
     listing fictitious employees and providers, and diverting
     program funds for nonprogram purposes. Participants at three
     sponsors have already admitted to or have been convicted of
     program fraud:

     -     A husband and wife who owned and operated a sponsorship
           were arrested and charged in a 23-count Federal
           indictment charging conspiracy, perjury, obstruction of
           justice, and mail fraud. Also, three of their employees
           pled guilty to mail fraud and have been sentenced.

     -     The husband and wife who owned and operated another
           sponsorship were sentenced to over 2 years in Federal
           prison for program fraud and ordered to pay the
           Government $2.2 million in restitution.




                         - ii -
-     A former program manager for another sponsor and her
      accomplice pled guilty to conspiring to create a
      fictitious child care provider and illegally obtain over
      $23,000 in CACFP funds. They were each sentenced to 3
      years probation and 6 months in a home detention
      program.

As part of our individual sponsor audits, we also completed
unannounced reviews at 752 homes and day care centers. We
attempted over 1,000 reviews but many sites were no longer
participating in the CACFP even though CDE records indicated
that they were still active. Of the 752 sites visited, 66
percent had discrepancies of some form. In some cases, the
sites claimed meals served to more children than were present
during our visits. In most cases, the sites’ meal service
records were too unreliable to support the claims. Because of
the poor conditions of these records, it was impossible for us
to determine if the CACFP was accomplishing its intended
purpose: to provide nutritious meals to children in day care.
We also reported health and safety issues to the local
authorities.

We concluded that many of the problems we found with the
sponsors should have been detected by CDE.          The three
management tools used by CDE to provide oversight of sponsor
activities--budget review and approval, administrative review,
and sponsor audits--had not been used effectively.         For
example, suspicious budgetary information provided by sponsors
was not questioned, CDE audits did not find discrepancies that
were readily detectable, and no followup actions were taken
when questionable activities were noted during administrative
reviews or audits.

One primary cause of CDE’s lack of effectiveness in preventing
and detecting problems in the CACFP is the organizational
structure of its oversight function. We found that the units
within CDE responsible for the CACFP displayed a lack of
coordination necessary to properly administer the program.
The External Audit Unit did not use the results of the
administrative reviews conducted by the Field Services Unit
during its audits, and the External Audit and Field Services
Units did not issue their audit and administrative reports to
the Programs Unit who would normally act on the audit findings
and recommendations.

One reform we believe CDE can make to improve its oversight is
to establish a universe of high-risk sponsors based on a
"profile" or set of characteristics shared by sponsors found
engaging in irregularities.     We developed such a profile
during our fieldwork and were able to target those sponsors we
regarded as potential problems. With such a profile, CDE can
likewise concentrate its resources to intensify oversight
where it is most needed.




                   - iii -
        During our audit, CDE submitted a list to FNS of 29 key
        actions which, if implemented, CDE believed would address some
        of our issues reported during our audit. While we support the
        action plan, we believe additional steps must be taken to
        improve CDE’s oversight of the CACFP.     At the time of our
        audit, many of the 29 points had not been implemented, and
        many of the planned actions did not directly address the
        CACFP.

        In our opinion, several recent steps taken by CDE should help
        improve the CACFP in California. Effective October 1, 1998,
        CDE reduced the maximum allowable amount that sponsors of day
        care centers’ food reimbursement to cover the sponsors’
        administrative costs. Previously the maximum was 30 percent
        but it has been reduced to 15 percent. Also, CDE reorganized
        its audit function. The audit unit is now independent from
        the Child Nutrition and Food Distribution Division.        The
        Audits and Investigations Division reports directly to the CDE
        General Counsel who reports to the Chief Superintendent of
        Public Instruction.

        Audits and investigations are continuing on some of these
        sponsors, and individual audit reports will be issued for all
        of them.    Although audit and investigative work on some
        sponsors has not been completed, we are issuing this audit
        report at this time to facilitate timely improvements to this
        important feeding program.

                                  We recommend that FNS work with CDE
                                  to identify its high-risk sponsor
KEY   RECOMMENDATIONS             universe and direct its resources
                                  to those sponsors who fit the
                                  problem sponsor profile presented
        in this report. Also, instruct the CDE to establish a process
        which ensures coordination between the Child and Adult Care
        Food Program units. In addition, FNS should instruct CDE to
        develop formal procedures to ensure corrective actions
        recommended in administrative reviews and audit reports are
        implemented by the sponsors, thoroughly review each sponsor’s
        budget and obtain support for all questionable amounts listed
        on the budget, and allow only one day care home agreement per
        sponsor.

                                In its February 3, 1999, written
                                response to the draft report, FNS
  AGENCY POSITION               agreed with our audit results and
                                recommendations.    The response is
                                incorporated,    along   with   our
      position, in the Findings and Recommendations section of this
      report. The full text of FNS’ response is included as exhibit
      F.




                            - iv -
TABLE OF CONTENTS

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . i


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
  BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

  OBJECTIVES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

  SCOPE    . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

  METHODOLOGY     . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3


FINDINGS AND RECOMMENDATIONS          . . . . . . . . . . . . . . . . . . . 4

I. FNS NEEDS TO TAKE IMMEDIATE ACTION TO RESTORE INTEGRITY TO
   CALIFORNIA’S CHILD AND ADULT CARE FOOD PROGRAM . . . . . . . . . . . 4

  FINDING NO. 1     Unscrupulous Sponsors Eluded CDE Detection for Years    . 5

                    Recommendations . . . . . . . . . . . . . . . . . . .    15

  FINDING NO. 2    CDE Was Negligent in Fulfilling its CACFP
                   Oversight Responsibilities . . . . . . . . . . . . .      16

                   Recommendations . . . . . . . . . . . . . . . . . . .     28



EXHIBITS
      A -    SUMMARY OF AUDITS AND INVESTIGATIONS IN CALIFORNIA   . . . .    31

      B -    CHARACTERISTICS OF SPONSORS DETERMINED TO BE SERIOUSLY
             DEFICIENT . . . . . . . . . . . . . . . . . . . . . . . . .     32

      C -    CACFP MANAGEMENT ALERTS ISSUED   . . . . . . . . . . . . . .    33

      D -    RESULTS OF PROVIDER VISITS   . . . . . . . . . . . . . . . .    34




                                     - v -
TABLE OF CONTENTS

    E -   CDE’S KEY ACTIONS . . . . . . . . . . . . . . . . . . . . .   35

    F -   FNS’ WRITTEN RESPONSE TO THE DRAFT REPORT . . . . . . . . .   37




                                - vi -
                             INTRODUCTION


                                          The Child and Adult Care Food
                                          Program (CACFP) is designed to
              BACKGROUND                  ensure that children and senior
                                          citizens in day care facilities
                                          receive nutritious meals. Program
               funding nationwide for fiscal year 1996 was $1.58 billion.
               For fiscal year 1997, the appropriation was increased by about
               10 percent to $1.74 billion.

                The program is administered at the Federal level by the Food
                and Nutrition Service (FNS) and at the State level by a State
                agency, except in Virginia, where it is directly administered
                by FNS.   State agencies administer their programs through
                public or nonprofit sponsoring organizations which act as a
                liaison between the State agency and participating day care
                facilities. Sponsors are ultimately responsible for program
                operations in those facilities.

                Day care facilities participating in the program receive
                reimbursement for meals meeting specified nutritional
                requirements. Facilities eligible to participate include day
                care homes (homes) or child care centers (centers). A home is
                a day care facility located in a private residence.        The
                operator of the home is referred to as the "provider."       A
                child care center is operated by a public or private nonprofit
                organization, is licensed to provide child care, and primarily
                serves pre-school children.      Homes and centers must be
                licensed by a State or local licensing authority.

                Under Title 7 Code of Federal Regulations (CFR) 226.4(h)
                funding is authorized to States specifically for the purpose
                of   conducting  audits   and   administrative  reviews   of
                institutions. These funds are designated to pay the cost of
                required organizationwide or program-specific audits of
                institutions.   7 CFR 226.6(l) also specifies that State
                agencies perform administrative reviews of sponsors on a
                periodic basis.

                Administrative reviews and audits examine some of the same
                program compliance areas. An administrative review performed
                by the California Department of Education (CDE) Field Services
                Unit evaluates eligibility and meal requirement compliance.
                However, an audit is performed by the External Audit Unit or
                an independent certified public accountant (CPA) in accordance
                with Government auditing standards (GAS) and is larger in
                scope than an administrative review.




USDA/OIG-A/27601-6-SF                                                   Page 1
                The CDE had the responsibility to monitor the CACFP on behalf
                of FNS. Within CDE, the External Audits Unit, Field Services
                Unit, and Program Unit were all involved in the monitoring
                process.    The External Audit Unit conducted audits to
                determine sponsor’s compliance with program requirements. The
                Field Services Unit performed administrative reviews to verify
                the sponsor’s latest meal claim reimbursement and review the
                most current month of operations.      In addition to budget
                approval, the Programs Unit approved sponsor applications,
                interacted with sponsors on a daily basis, provided technical
                assistance, and had the authority to take administrative
                action against a sponsor.

                In terms of program expenditures, California has the largest
                CACFP program in the nation. In fiscal year 1996, program
                expenditures in California were about $176 million of total
                program expenditures of about $1.46 billion, or about 12
                percent of the program.    As of March 1997, California had
                direct agreements with 503 day care centers, 14 sponsors of
                after school care, 100 sponsors of day care homes only, 6
                sponsors of day care centers only, and 10 sponsors of both
                homes and centers.     Approximately 400,000 children are
                enrolled in the CACFP in California.

                                          Our audit objectives were to (1)
                                          report the serious sponsor abuses
              OBJECTIVES                  prevalent   in    the   CACFP    in
                                          California, and (2) determine why
                                          the State’s oversight function had
               not detected and prevented the significant program abuses that
               had been disclosed in a series of OIG audits and
               investigations.

                                           The scope of our review was the CDE
                                           oversight of sponsors participating
                  SCOPE                    in the CACFP. As of February 16,
                                           1999, we had in process or had
                                           completed       audits      and/or
                investigations of 10 sponsors of providers and day care
                centers participating in the CACFP.        These 10 sponsors
                received $45.3 million of the total $246.7 million in meal
                reimbursement, administrative program funds, and cash in lieu
                of commodities for fiscal years 1996 and 1997 paid to sponsors
                of day care homes and centers. The sponsors were selected for
                an audit, and if necessary, an investigation based on a
                problem sponsor profile we developed and referrals from FNS,
                CDE, or other sources (whistleblower complaints, audit leads,
                etc.).

                We selected audit reports and administrative review reports
                for these ten sponsors to determine if CDE and/or CPA’s




USDA/OIG-A/27601-6-SF                                                   Page 2
                discovered the same type of problems we encountered with these
                sponsors.

                Audit work was performed from January 1996 through August 1998
                at the FNS Regional Office in San Francisco, California; the
                CDE in Sacramento, California; at sponsors offices in Visalia,
                Long Beach, Pasadena, Inglewood, Yucca Valley, Diamond Bar,
                Reedley, Fallbrook, Pomona, and Thousand Oaks, California.

                The audit was conducted in accordance with the U.S. General
                Accounting Office’s "Government Auditing Standards (1994
                Revision)."

                                          To accomplish our objectives and
                                          support our findings, we performed
              METHODOLOGY                 the following steps:


                   At the CDE, we evaluated program oversight to determine the
                   effectiveness of the budget process, administrative
                   reviews, and audits.

                   At the CDE, we also (1) reviewed program files for each of
                   the ten sponsors, and (2) interviewed program staff to
                   determine the universe of sponsor data.

                   We examined audit reports and administrative reviews to
                   determine if the CDE and/or CPA discovered the same types
                   of problems we discovered in our audits.

                   We interviewed the sponsor’s staff to obtain an
                   understanding of their operating procedures.       We also
                   reviewed their supporting documentation for claims for meal
                   reimbursement and administrative expenditures.

                   We judgmentally selected homes or centers operating under
                   the sponsor and completed reviews at the provider sites.
                   Criteria for the judgmental sample were as follows: (1)
                   providers with a high reimbursement, (2) providers with
                   high enrollment, and (3) providers who consistently claim
                   the same number of children for meals.

                   At each of the homes or centers, we interviewed providers
                   or other persons present, and reviewed their records.




USDA/OIG-A/27601-6-SF                                                   Page 3
                      FINDINGS AND RECOMMENDATIONS


  I. FNS NEEDS TO TAKE IMMEDIATE ACTION TO RESTORE INTEGRITY
     TO CALIFORNIA’S CHILD AND ADULT CARE FOOD PROGRAM


                    Based on our completed and ongoing audits and investigations
                    of individual day care sponsors, we concluded that CDE has
                    been negligent in its administration of the CACFP. We found
                    a high incidence of fraud and abuse in the program in
                    California. Some cases we investigated have already resulted
                    in prosecutions and the sentencing of the sponsor officials.
                    In one case, a Field Services Unit manager for CDE was
                    directly involved in the fraud. We concluded that FNS needs
                    to increase its presence in the State program to ensure that
                    the CDE is capable of restoring integrity to the CACFP.

                    We found serious program irregularities at all 10 sponsors we
                    reviewed.   Serious deficiencies are considered grounds for
                    termination from the program.     These deficiencies include
                    submission of false information to the State agency, failure
                    to maintain adequate records, and failure to disburse payments
                    to facilities in accordance with management plans.1

                    Four of the ten sponsors we audited have been terminated from
                    participating in the CACFP, and the State agency is initiating
                    the termination of a fifth sponsor. Additionally, eight of
                    these sponsors are being investigated for program fraud.
                    Fourteen individuals have been indicted for program fraud, and
                    9 of the 14 have pled guilty.

                    Most of the problems we found with the sponsors should have
                    been detected by CDE. CDE was not fulfilling its oversight
                    responsibilities to maintain the integrity of the program.
                    CDE had at its disposal several management tools--including
                    budget reviews, administrative reviews, and sponsor audits--
                    that could have been used to alert State managers to potential
                    problem areas. However, these tools were either not used or
                    were not used to any consequence.

                    For the 10 sponsors we audited, the reviews and audit that CDE
                    performed and the audits it had contracted with CPA firms to
                    perform consistently found few problems in sponsor operations,
                    even though the irregularities we found were readily




  1
      7 CFR 226.6 (c), dated January 1, 1995.



USDA/OIG-A/27601-6-SF                                                       Page 4
                detectable through normal auditing procedures and had been
                ongoing for years under CDE’s oversight. In those cases we
                reviewed, in which CDE did detect irregularities, it failed to
                act.

                We are recommending that FNS involve itself directly in CDE’s
                program activities to increase the effectiveness of the
                State’s oversight. One measure we believe FNS and CDE can
                take to reform State oversight is to establish a universe of
                high-risk sponsors based on the characteristics we observed in
                the sponsors we found engaged in irregularities. With such a
                universe, CDE can concentrate its resources to intensify
                oversight where it is most needed.

                In the following two findings, we (1) summarize the results of
                the CACFP audits we performed in California and describe the
                sponsor characteristics or "profile" that emerged from those
                audits, and (2) identify the tools CDE had at its disposal but
                failed to use to enforce program integrity.

                                           OIG   audits    and   investigations
                                           disclosed widespread fraud and abuse
           FINDING NO. 1                   in the CACFP in California. Much of
                                           the abuse had existed for a number
     UNSCRUPULOUS SPONSORS                 of years. This was caused in part
    ELUDED CDE DETECTION FOR               because of ineffective reviews and
                                           audits being conducted by either CDE
              YEARS                        or the CPA firms that CDE had
                                           contracted with. We concluded that
                                           CDE needs to develop a profile of
                the characteristics    common to problem sponsors and target
                these sponsors for     indepth audits.    We developed such a
                profile during our     review and found that all 10 of the
                sponsors met one or   more of the elements of the profile.

                In 1996, we initiated an extensive audit of private, nonprofit
                sponsors participating in the CACFP in California. This audit
                was conducted because a review of another sponsor we performed
                in response to a whistleblower complaint demonstrated that the
                potential existed in the State for other sponsors to be
                seriously deficient. The work in California was the precursor
                of our national initiative (Operation Kiddie Care) to identify
                problem sponsors participating in this program.

                So far, the results of our sponsor audits and investigations
                in California have been significant. As stated previously, we
                found program irregularities at all 10 sponsors we reviewed.
                These 10 sponsors annually received approximately $22.6
                million in meal reimbursement, administrative program funds,
                and cash in lieu of commodities. The deficiencies included
                lack of recordkeeping, claims for unsupported and ineligible
                costs, lack of provider training and monitoring, and numerous




USDA/OIG-A/27601-6-SF                                                    Page 5
                health and safety violations which were reported to the local
                authorities.

                The results of each sponsor audit will be reported in
                individual audit and/or investigation reports. While some of
                these reports are not yet final, and more audits are
                anticipated, the following audit reports have been issued or
                are in process of being issued at this time:


                                                                        Audit
                  Audit Number                 Sponsor                 Report
                                                                       Issued

                 27010-02-SF     Angela’s Angels Preschool, Inc.        Yes
                 27010-04-SF     Pacific Asian American Family Care,
                                 Inc.                                   Yes
                 27010-09-SF     Community Business Improvement
                                 Association, Inc.                      Yes
                 27010-11-SF     Aladdin Child Care Services, Inc.      Yes
                 27010-13-SF     Children’s Spectrum Child Care
                                 Services, Inc.                         Yes
                 27010-14-SF     A Perfect Balance, Inc.                Yes
                 27010-15-SF     Sponsor A.                              No
                 27010-16-SF     Sponsor B.                              No
                 27010-17-SF     Sponsor C.                              No
                 Unassigned      Sponsor D.                              No

                The sponsors were able to abuse the program in several ways,
                including submitting false claims for fictitious providers,
                employees, and businesses, and by using program funds to pay
                for personal expenses such as vacations, food, clothing,
                tuition, and vehicles.   Additionally, administrative funds
                were inappropriately used to pay rent for buildings owned by
                related parties.

                We developed a profile because some sponsors that engaged in
                irregular activities exhibited certain shared characteristics.
                They were more apt to be family-run operations than
                organizations that employed nonfamily members. Seven of the
                ten sponsors we found deficient were family-run operations.

                Similarly, we found problems with sponsors whose officials
                held outside employment, or whose only source of funding was
                the CACFP. Officials with outside employment have been found
                to neglect their sponsorship duties while claiming their




USDA/OIG-A/27601-6-SF                                                         Page 6
                salaries as sponsor officials.    Officials for 6 of the 10
                sponsors with serious program irregularities held outside
                employment; 9 of the 10 sponsors derived their income solely
                from CACFP funding.

                Another characteristic that problem sponsors often seem to
                have in common is their claim for the maximum administrative
                expenses allowable for sponsoring child care centers. The
                State of California allows sponsors of child care centers to
                reimburse   themselves   for  administrative   expenses   by
                withholding up to 30 percent of the centers’ food cost
                reimbursements. Five of the ten sponsors we reported on were
                withholding the full 30 percent.

                Exhibit B identifies the common characteristics that the
                problem sponsors exhibited.

                The following is a summary of the individual audits and
                investigations of CACFP sponsors in California:

                Angela’s Angels Preschool, Inc.   (Report Issued August 1996)

                   Angela’s Angels Preschool, Inc. (Angela’s Angels) of
                   Visalia, California, was the first CACFP sponsor we
                   reviewed and was the precursor to our nationwide review of
                   CACFP sponsors. FNS referred this sponsor to us based on
                   an anonymous complaint received by another State agency and
                   passed along to CDE. During our review we noted that the
                   sponsor was a family-run operation, received only CACFP
                   funding, and was claiming 30 percent of its centers’ food
                   costs for administrative expenses.

                   Based on our audit results, the sponsor was found to be
                   seriously deficient in administration of the CACFP and was
                   terminated from the program. The sponsor’s onsite reviews
                   of its providers were not thorough, were always announced
                   in advance, and all required reviews were not conducted.
                   The sponsor did not keep accurate and complete records and
                   did not adequately review and verify the provider’s claims
                   for reimbursement prior to payment. The sponsor also did
                   not timely disburse program funds to providers as required.

                   This sponsor is under investigation for defrauding the
                   program of over $340,000 from USDA and CDE. The husband
                   and wife who owned and operated the business were arrested
                   and charged in a 23-count Federal indictment. The charges
                   included conspiracy, perjury, obstruction of justice, and
                   mail fraud.

                   It   is  alleged    that   the  couple    paid   themselves
                   reimbursements for meals claimed on behalf of providers who
                   no longer participated in the program, paid meal
                   reimbursements to full-time employees based on false claims




USDA/OIG-A/27601-6-SF                                                   Page 7
                   which the employees submitted, and created false home
                   inspection reports to conceal the fact that employees were
                   not making required home inspection visits.

                   Three of Angela’s Angels employees have pled guilty to mail
                   fraud associated with the submission of false day care home
                   provider claims. They were sentenced to 5 years probation
                   and 90 days home detention, and also ordered to pay USDA
                   $12,000 in restitution.

                   Angela’s Angels had been engaging in the activities with
                   which it is charged since 1989. In September 1995, CDE
                   issued an audit report on this entity covering fiscal years
                   (FY) 1992-1993 and issued an unqualified opinion.

                Pacific Asian American Family Care, Inc. (Report Issued in
                August 1997)

                   We reviewed Pacific Asian American Family Care, Inc. (PAAM)
                   of Long Beach, California at the request of the CDE, which
                   had expressed concerns about the sponsor’s operation of the
                   program. This sponsor exhibited all the characteristics of
                   a problem sponsor: it was a family-run operation, it
                   received only CACFP funding, it claimed 30 percent of its
                   centers’ food costs, and its officers engaged in outside
                   employment.

                   Based on the results of our audit, the sponsor was found
                   seriously deficient in administration of the CACFP and was
                   terminated from the program.    Specifically, the sponsor
                   failed to provide support for the administrative costs it
                   claimed. Furthermore, the limited records we were provided
                   indicated that excessive and unallowable personal expenses
                   may have been charged to the program.

                   Criminal charges were filed against the husband and wife
                   who owned and operated PAAM. The couple was charged with
                   defrauding the program of approximately $2.2 million by
                   submitting inflated budgets and by diverting CACFP funds to
                   themselves through "payments" to nonexistent employees and
                   bogus business entities. The couple was also charged with
                   using numerous aliases to conceal their interest in the
                   sponsor. The wife was also a manager for the CDE, which
                   was responsible for administering the program.        As a
                   manager for the CDE, the wife was responsible for
                   overseeing this and other sponsors in Southern California.

                   PAAM’s former executive director and program director
                   engaged in a separate fraud scheme. They submitted false
                   claims for nonparticipating providers, and, as a result,
                   PAAM was reimbursed in excess of $60,000 for these claims.
                   The executive director and program director used these
                   funds for their own personal use.




USDA/OIG-A/27601-6-SF                                                   Page 8
                   The husband was sentenced to 2 years in Federal prison and
                   the wife to 3 years.       They were ordered to pay the
                   Government $2.2 million in restitution and had already
                   forfeited four residential properties they owned, including
                   their 5,000 square-foot home in an exclusive neighborhood
                   in Southern California. USDA has received over $1 million
                   from the sale of the four properties. Also, the former
                   executive director and program director were convicted and
                   sentenced to 7 months in prison and 5 months in a community
                   correctional facility. They were ordered to pay $60,000
                   restitution.

                   PAAM had been defrauding the CACFP for over 5 years. The
                   CPA who performed the FY 1995 audit for PAAM issued an
                   unqualified opinion.    As a result of our audit, CDE
                   referred the CPA to the California Department of Consumer
                   Affairs Division of Investigations.

                Community Business Improvement    Association,   Inc.   (Report
                Issued September 1998)

                   Community Business Improvement Association, Inc. (CBIA) of
                   Pasadena, California was selected based on a whistleblower
                   complaint received from a source other than CDE. CBIA is
                   currently under investigation for fraud. Like PAAM, CBIA
                   exhibited all the traits of a problem sponsor: it was a
                   family-run operation, it received only CACFP funding, it
                   claimed 30 percent of its centers’ food costs, and its
                   officers engaged in outside employment.

                   We issued three management alerts to FNS notifying them of
                   the following: 1) a key employee of the sponsor had
                   admitted participating in a scheme to misappropriate CACFP
                   funds by submitting false claims for a nonexistent
                   provider, 2) CDE had taken funds which were owed to child
                   care centers for their food expenses to settle the debt
                   owed by the sponsor, and 3) the sponsor had consistently
                   been late in reimbursing its providers and centers for the
                   cost of meals served to the children. The sponsor also
                   admitted to falsifying home inspection reports for 20 to 50
                   percent of the required home inspection visits.

                   Based on the results of our audit, the sponsor was found
                   seriously deficient in administration of the CACFP.     We
                   found that the sponsor claimed unsupported payroll costs,
                   most of which was paid to the executive director and three
                   other key employees, all of whom were related. The sponsor
                   claimed rent that was unallowable because the property was
                   owned by the executive director and her husband.       The
                   sponsor also failed to perform a number of monitoring
                   visits, and failed to pay all its providers and centers
                   within the time period allowed.




USDA/OIG-A/27601-6-SF                                                    Page 9
                   The former manager for CBIA and her accomplice pled guilty
                   to making a false statement in connection with CACFP
                   provider claims.   They conspired to create a fictitious
                   child care provider and illegally obtained over $23,000 in
                   CACFP funds.

                   They were each sentenced to 3 years probation and 6 months
                   in a home detention program, and ordered to pay a $100
                   fine. They were also ordered to pay the total restitution
                   amount of $23,340.      In addition, the investigation
                   disclosed that a former California Health Department
                   employee furnished the former manager with a fictitious
                   state child care license.

                   CBIA’s fraud had been ongoing since 1994. As of December
                   31, 1994, the CPA issued an unqualified audit opinion for
                   all three of CBIA’s agreements with the CDE.

                Aladdin Child Care Services, Inc. (Report Issued February
                1999)

                   We selected Aladdin Child Care Services, Inc. (Aladdin)
                   after an OIG auditor pursued a lead on a complaint made
                   against the sponsor.    CDE had adverse information about
                   Aladdin, but it did not share that information with us. We
                   obtained Aladdin’s records with a subpoena when we found
                   out that the sponsor was removing itself from program
                   participation while still owing its day care centers
                   thousands of dollars in food reimbursements.

                   Like PAAM and CBIA, Aladdin was a family-run operation,
                   received only CACFP funding, and claimed 30 percent of its
                   centers’ food costs. Also, three of Aladdin’s officials
                   received salaries both as sponsor officials and as
                   operators of an independent day care center.

                   We found that this sponsor, before terminating itself from
                   participation in the CACFP, used funds for unsupported and
                   unallowable purposes.     Although an absence of records
                   prevented us from quantifying all of its questionable
                   activities, we still identified about $800,000 in
                   questionable costs and payments. The majority of day care
                   centers were not paid for all meal reimbursements they were
                   entitled to, and if they were paid, they were not paid on
                   time. While the sponsor underpaid many of its day care
                   centers, it usually overpaid the day care center that it
                   owned. We found a large amount of unexplained payments to
                   the sponsor’s own day care center. The sponsor also used
                   CACFP funds to pay for questionable administrative costs,
                   such as construction costs, overdraft charges, and attorney
                   fees.




USDA/OIG-A/27601-6-SF                                                  Page 10
                   In October 1997, CDE issued an audit report on this entity
                   covering FYs 1994-1996 and issued a qualified opinion
                   because of "... a material overpayment of reimbursements to
                   the centers and agency" and "material noncompliance".
                   However, the CDE did not believe the findings were material
                   enough to terminate the sponsor from the CACFP.

                   Even though CDE knew about Aladdin’s questionable
                   activities as early as January 1997, it did not take the
                   necessary steps to correct these deficiencies or terminate
                   Aladdin’s participation in the CACFP.    In fact, Aladdin
                   received approximately $460,000 in program funds after CDE
                   became aware of these deficiencies. We also found that
                   Aladdin began paying centers even less of the total meal
                   reimbursements due them after CDE became aware of the
                   sponsor’s problems.

                   This sponsor is currently under investigation for program
                   fraud.

                Children’s Spectrum Child Care Services, Inc. (Report Issued
                July 1998)

                   Children’s Spectrum Child Care Services, Inc. (Children’s
                   Spectrum) of Yucca Valley, California was originally
                   selected by OIG based on its size and because it fit our
                   profile of a sponsor using 30 percent of day care center
                   food reimbursements to cover administrative costs.
                   Subsequently, in response to our request to each of the
                   States for potential review candidates, CDE suggested this
                   sponsor for review. According to CDE, one of the reasons
                   they suggested this sponsor was that the executive director
                   was "not accessible."

                   The sponsor is currently under investigation for program
                   fraud.    While residing and working in Wisconsin, the
                   executive director claimed a salary and had the exclusive
                   use of a leased vehicle which was charged to the CACFP. We
                   also determined that for a 6-month period, the executive
                   director received Unemployment Compensation Benefits from
                   Wisconsin despite receiving his salary from the sponsor in
                   California.

                   On March 5, 1998, we issued a Management Alert recommending
                   that FNS instruct the State agency to withhold any payments
                   to this individual for salary and for the leased vehicle,
                   and to recover $231,371 in program funds already paid for
                   these purposes.

                   Subsequently, a Criminal Complaint was filed in Wisconsin
                   for "False Statements to Obtain Unemployment Benefits"
                   against the executive director for allegedly receiving
                   unemployment benefits in Wisconsin while being employed




USDA/OIG-A/27601-6-SF                                                  Page 11
                   full-time in California as the executive director of a
                   CACFP sponsor.

                   The problems with Children’s Spectrum date back to 1994.
                   The CPA who performed the 1995 and 1996 audits for
                   Children’s Spectrum issued an unqualified opinion.     We
                   referred the CPA to the California Department of Consumer
                   Affairs Division of Investigations for substandard audit
                   work.

                A Perfect Balance, Inc. (Report Issued in December 1998)

                   A Perfect Balance, Inc. (A Perfect Balance) of Diamond Bar,
                   California was selected because, like Children’s Spectrum,
                   it used day care center food reimbursements to cover
                   administrative costs.    We also noted that the sponsor
                   received only CACFP funding and that its officers engaged
                   in outside employment.

                   This sponsor is not under investigation for fraud, but we
                   found its administration of the program to be seriously
                   deficient. The sponsor delayed meal reimbursement to its
                   day care centers and day care homes, used CACFP funds to
                   pay for unallowable and unsupported administrative costs,
                   and had not paid creditors for bills associated with the
                   program.   The sponsor also did not properly staff the
                   office during normal business hours.

                   Activities at this sponsor had been deficient since 1992.
                   For FY 1996, the CPA issued an unqualified opinion for this
                   sponsor.

                Sponsor A.
                   This sponsor was selected for review based on a
                   whistleblower complaint received by our investigative
                   staff. The whistleblower alleged fiscal irregularities and
                   based on our initial review of the allegations, these
                   irregularities appear valid. We noted that this sponsor
                   was a family-run operation and received only CACFP funding.

                   We questioned program funds that were used for personal and
                   non-CACFP related expenditures. In addition, the sponsor
                   used program funds to purchase equipment without the State
                   agency’s approval, and the sponsor could not always support
                   its expenditures. We also found that the sponsor did not
                   provide adequate oversight of day care home providers.
                   This lack of oversight may explain, at least in part, why
                   most providers we visited had not complied with important
                   program requirements. CDE has initiated the termination of
                   this sponsor.




USDA/OIG-A/27601-6-SF                                                  Page 12
                   This sponsor had been engaging in irregular activities
                   since 1994.   For FYs 1995 and 1996, the CPA issued an
                   unqualified opinion for this sponsor.

                   We have referred Sponsor A to OIG Investigations for
                   program fraud.

                Sponsor B.
                   This sponsor was selected for review based on the audit
                   reports issued by the CPA. The CPA reports disclosed that
                   Sponsor B had an overall negative fund balance and there
                   were multiple "related party" (less-than-arms-length) loan
                   transactions.

                   Preliminary results showed more than half of the day cay
                   home providers we visited did not have current attendance
                   or meal count records. The sponsor also purchased $2,000
                   of computer equipment which was not approved by the CDE.

                   In addition, the sponsor advanced funds to employees who
                   traveled to conferences. We determined that the sponsor
                   claimed reimbursement for the amount advanced to the
                   employees, not the amount spent by the employees. However,
                   we were unable to determine if the funds returned by the
                   employees were actually deposited and recorded as credits
                   against program expenses.

                   For FYs ended June 30, 1995, 1996, and 1997, the CPA issued
                   an unqualified opinion.

                Sponsor C.
                   This sponsor was selected for review based on our review of
                   their budgets submitted to CDE. Preliminary results have
                   shown serious potential program irregularities.          We
                   determined that during the 11 months we reviewed, the
                   sponsor claimed numerous unallowable, unsupportable, and
                   unreasonable expenditures totaling $115,397.          These
                   expenditures included about $15,000 in automobile lease
                   payments for vehicles which were used for personal reasons
                   and other unallowable administrative expenditures of almost
                   $30,000.    Thousands of dollars were also expended for
                   unreasonable administrative costs.

                   Records showed that the sponsor was a family-run operation
                   and that it received only CACFP funding. We also found
                   evidence that its officials may have been engaged in
                   outside employment.

                   It appears that this sponsor has engaged in irregular
                   activities since 1992.   For FY 1995, the CPA issued an
                   unqualified audit opinion.




USDA/OIG-A/27601-6-SF                                                  Page 13
                Sponsor D.
                   This sponsor, a family-run operation that receives only
                   CACFP funding, is currently not participating in the CACFP
                   and is being investigated for program fraud. It appears
                   that the sponsor fraudulently claimed administrative funds.
                   CDE initiated the investigation by seizing the sponsor’s
                   records through a search warrant.

                   The CDE had conducted a compliance review in 1996, and
                   determined Sponsor D was not in compliance with CACFP
                   regulations.   OIG initiated an investigation of this
                   sponsor based on a request for assistance from the CDE.

                   Criminal charges were filed against the husband, wife, and
                   daughter who owned and operated this sponsorship. A 10-
                   count indictment for mail fraud was filed against the three
                   defendants for fraudulently obtaining over $95,000 from the
                   CDE and the CACFP. The defendants used various schemes to
                   inflate claims for reimbursement and also falsified reports
                   to make it appear that they were properly monitoring
                   approximately 1,000 day care homes which they sponsored.

                   For FY 1995, the CPA issued an unqualified opinion for this
                   sponsor.

                As part of the above audits, we visited or attempted to visit
                1,009 day care homes and day care centers operating under
                eight of the ten California sponsors.      For the other two
                sponsors we were unable to visit any sites because of ongoing
                investigations. We completed reviews at 752 of these sites.
                Two hundred and fifty-seven visits were not completed largely
                because there was nothing to review: no one was on the
                premises during the stated food service hours, or the home was
                no longer in the program. However, CDE records showed that
                these providers were still participating in the program.

                Of the 752 day care homes and centers we were able to visit,
                66 percent had discrepancies of some form. In some cases, the
                homes recorded meals served to more children than were present
                during our visits. In most cases, the homes’ meal service
                records were too unreliable to support the claims (see exhibit
                D).

                We found that sponsors gave little or no help to providers in
                terms of nutritional awareness.       Additionally, for the
                sponsors of child care centers, the misappropriated program
                funds directly reduced the money available to purchase food
                for needy children.    We also identified health and safety
                problems at numerous locations, including unsanitary feeding
                sites, the presence of dangerous animals, and inadequate
                supervision of children.




USDA/OIG-A/27601-6-SF                                                  Page 14
                We found serious program irregularities for the 10 sponsors
                selected for review.    Exhibit A illustrates the types of
                program deficiencies identified and the results of our audits
                and investigations.

                We concluded that because CDE’s audits and administrative
                reviews identified few, if any, of the problems we observed in
                these sponsors, CDE should target its oversight of sponsors
                which exhibit characteristics such as those listed in exhibit
                B and concentrate its resources on the sponsors targeted. In
                addition, CDE did not always take action on the problems
                identified.    Consequently, CDE needs to determine which
                sponsors are high risk. We recommend this determination be
                based on an analysis of common characteristics, such as those
                we encountered during our review of the 10 sponsors we
                reported on.    CDE should identify its high-risk sponsor
                universe and target these sponsors for limited scope audits if
                they fall below the OMB Circular A-133 threshold of Federal
                awards totaling $300,000 or more.

                Recommendations to address the individual conditions we found
                at the sponsors are specified in their respective audit
                reports.


      RECOMMENDATION NO. 1a

                FNS should work with the CDE to identify its high-risk sponsor
                universe and direct its resources to those sponsors who fit
                the problem sponsor profile.

                FNS Response
                In its written response to the draft report, dated February 3,
                1999, FNS agreed with this recommendation.

                OIG Position
                To accept FNS’ management decision on this recommendation, we
                will need to be advised of the date when the CDE expects to
                complete its identification of its high-risk sponsor universe
                and to direct its resources to those sponsors who fit the
                problem sponsor profile.




USDA/OIG-A/27601-6-SF                                                  Page 15
         RECOMMENDATION NO. 1b

                    Instruct the CDE to compile a database of all CACFP sponsors,
                    including a classification of high-risk sponsors.

                    FNS Response
                    In its written response to the draft report, dated February 3,
                    1999, FNS agreed with this recommendation.

                    OIG Position
                    To accept FNS’ management decision on this recommendation, we
                    will need to be advised of the date when the CDE expects to
                    complete its database of all CACFP sponsors, including a
                    classification of high-risk sponsors.

                                     The CDE was negligent in fulfilling
                                     its oversight responsibilities for
         FINDING NO. 2               sponsors participating in the CACFP.
                                     The CDE fostered a lax environment
     CDE WAS NEGLIGENT IN            in which day care sponsors could
     FULFILLING ITS CACFP            personally enrich themselves through
                                     various questionable or fraudulent
  OVERSIGHT RESPONSIBILITIES         schemes which they could perpetrate
                                     with little likelihood of detection
                                     by the CDE. In addition, we believe
            that without a greater FNS presence in the State’s conduct of
            the program, this lax environment may continue, and the
            integrity of the program may remain in doubt.

                    Regulations state "Each State agency shall provide sufficient
                    consultative, technical and managerial personnel to administer
                    the Program, provide sufficient training and technical
                    assistance to institutions and monitor performance to
                    facilitate expansion and effective operation of the Program."2

                    The CDE’s oversight responsibilities for the CACFP included
                    reviewing and approving the sponsor’s budget, conducting
                    administrative reviews, and conducting and/or reviewing
                    audits.   We determined that the CDE was deficient in its
                    oversight responsibilities for all three areas.




  2
      7 CFR 226.6 (a), dated January 1, 1995.



USDA/OIG-A/27601-6-SF                                                      Page 16
                BUDGET CONCERNS
                Sponsors are required to submit a budget to their CDE program
                analyst by the end of September for the following fiscal year.
                Although not all of the problems could have been detected from
                a review of the budgets, our review of the budgets for the 10
                sponsors identified "red flags" that indicated potential
                problems or concerns which should have been questioned:

                   Claiming Administrative Costs for Day Care Centers

                   Reimbursement of administrative costs to sponsors of
                   independent centers is not explicit in the regulations, as
                   it is for sponsors of day care homes. On December 1, 1997,
                   we issued a Management Alert recommending that FNS
                   establish a rate that sponsors can retain for administering
                   the program to the centers. However, FNS responded that
                   "... State agencies are in the best position to evaluate
                   the individual needs of their sponsoring organizations."
                   California allowed sponsors of independent centers to
                   retain up to a maximum of 30 percent of a center’s meal
                   reimbursement to cover their administrative expenses.
                   (Because of our audit work, as of FY 1999, California is
                   only allowing sponsors of independent centers to retain up
                   to 15 percent.)

                   Six of the ten sponsors we reviewed were sponsors of
                   independent centers, and five of the six also sponsored day
                   care homes. Five of the six sponsors retained the maximum
                   of 30 percent of food reimbursement from their centers for
                   administrative expenditures. The other sponsor owned its
                   own center, prepared the meals for its centers, and claimed
                   food reimbursement directly from CDE.

                   Additionally, sponsors of day care homes receive an
                   administrative payment according to the number of homes
                   under their sponsorship. Therefore, for five of the six
                   sponsors, the sponsor not only received administrative
                   funds from the CDE for its day care home administration,
                   but also retained 30 percent of center meal reimbursements
                   for administrative expenditures.

                   We concluded that 30 percent was excessive and created an
                   opportunity for sponsors to abuse the program. A math
                   computation when the budgets were approved would have shown
                   the   reviewer   that   the   30-percent    retention   was
                   questionable.    For example, for FY 1997, Children’s
                   Spectrum received $297,361 for administering an annual
                   average of 493 homes and $188,773 for administering 49
                   centers. Although oversight responsibilities for homes and
                   centers are similar, the sponsor received about $50 per
                   month for each day care home provider and $321 for each
                   center.




USDA/OIG-A/27601-6-SF                                                   Page 17
                       For FY 1997, CBIA’s budget was approved for the following:
                       $142,316 for its administration of 175 homes, $147,585 for
                       its administration of 180 homes, and $301,321 for its
                       administration of 38 centers.     On average, the sponsor
                       received about $68 per month for each day care home
                       provider and $661 for each center.     Based on our audit
                       work, we could find no reason that sponsors should retain
                       these large amounts of food reimbursement. In fact, we did
                       not find that sponsors do any more administratively for
                       centers than they do for home providers.

                       For FY 1996, PAAM’s independent center budget was approved
                       for $840,628 for 63 centers. Thus, the sponsor’s budget
                       allowed $1,112 per month for administrative expenses for
                       each center.

                       For all three of these examples, we found that the sponsors
                       were diverting funds made available in the 30 percent
                       calculation to unauthorized uses.

                       Created High Budgeted Amounts To Capture the 30 Percent
                       from Centers
                       As stated, sponsors of day care centers were permitted to
                       retain up to a maximum of 30 percent of the food money
                       intended for children attending day care centers, as long
                       as the 30 percent did not exceed the "actual" or "budgeted"
                       amounts. "Budgeted" amounts that equalled or exceeded this
                       30 percent should have been an automatic red flag and
                       raised questions about the sponsors’ budgets. This also
                       applies to amounts that equal or exceed the new 15 percent
                       maximum.

                       We found problems with all six of the sponsors that were
                       justifying the retention of 30 percent reimbursement.
                       These sponsors created high actual or budgeted amounts to
                       capture the maximum 30 percent. Five of the six are being
                       investigated for program fraud.

                       Having More than One Day Care Home Agreement
                       Sponsors of homes are reimbursed for their actual costs of
                       administering the program, not to exceed the lesser of:
                       (1) the budget amount approved annually by the State agency
                       or (2) a maximum amount per home established by FNS
                       (referred to as "homes times rates").3 The maximum amount
                       per home varies depending on the total number of homes
                       participating (the more homes, the less per home). For the
                       year ended June 30, 1997, the maximum ranged from $38 to
                       $73 per home.




  3
      7 CFR 226.10 (c) and 226.12 (a), dated January 1, 1995.



USDA/OIG-A/27601-6-SF                                                      Page 18
                        CBIA’s budget showed that the sponsor had two agreements to
                        sponsor day care homes. Sponsors are normally limited to
                        only one home agreement to cover all homes sponsored. By
                        having two home agreements the sponsor was paid a higher
                        administrative reimbursement than if it had one agreement.

                        The sponsor in question budgeted 175 homes under one
                        agreement and 180 homes under the second agreement. By not
                        budgeting all 355 homes under one agreement, the sponsor
                        was able to circumvent the maximum-amount-per-home rule.
                        We believe that CDE should only allow one day care home
                        agreement per sponsor.

                    Effect of Budgeting 355 Homes Under 2 Agreements Instead of 1
                                                            Number of Homes
                         No. of
                       Agreements    Initial     Next 150      Next 800       Total Per    Total
                                     50 $73         $56           $44           Month     Annually

                           1            $3,650      $ 8,400        $6,820       $18,870    $226,440

                           2             7,300       14,280                      21,580     258,960

                       Difference                                               $ 2,710    $ 32,520

                        Receiving Late Approval of Program Budget
                        As stated, sponsors are required to have their budgets
                        submitted to CDE by the end of September for the next
                        fiscal year. CDE has 30 days from receipt of the completed
                        budget in which to review and approve or disapprove the
                        budget.4

                        Sponsor C’s budget for Federal fiscal year 1998 was not
                        approved until July of 1998, 10 months into the fiscal
                        year.    In this case, CDE questioned an item in the
                        sponsor’s budget--an out-of-State training seminar--but by
                        July the sponsor had already incurred the expense of the
                        trip. CDE was obliged to honor the sponsor’s claim for the
                        expense because the sponsor learned after the fact that CDE
                        would not allow it. Under OMB Circular A-122 guidelines,
                        the expense may have been allowable.

                        Other Questionable Amounts on the Budgets
                        We found other questionable amounts on CDE-approved CACFP
                        budgets. Our audit work generally determined that if these
                        amounts had been questioned, serious deficiencies would
                        have been detected and abuses possibly prevented.




  4
      FNS Child and Adult Care Program Day Care Homes Handbook, page 13, dated October 1994.



USDA/OIG-A/27601-6-SF                                                                       Page 19
                   1. Sponsor C’s monthly employee benefits exceeded $8,000,
                      much greater than any other sponsor we reviewed. This
                      sponsor also budgeted 11,000 miles per month for mileage
                      expenses incurred by employees who use their personal
                      vehicles for monitoring, training, and workshops.
                      However, the sponsor also budgeted expenses for leased
                      vehicles.

                   2. Sponsor D’s approved budgets for Federal fiscal years
                      1995 and 1996 showed that their rent expense increased
                      from $16,200 to $30,298. The sponsor cited the need for
                      adequate working space as its justification for this
                      increase. This large increase was just one example of
                      a "red flag" which should have required further
                      followup. OIG-Investigations is currently investigating
                      this sponsor for program fraud.

                   3. Four of the ten sponsors we reviewed also engaged in
                      less-than-arms-length transactions for office space
                      rent. The budget requires sponsors to identify whether
                      the office facilities are partially or fully owned by
                      agency, agency official(s), employees, or relatives of
                      either officials or employees.

                        Each of these sponsors incorrectly certified that they
                        rented office space from unrelated parties. However,
                        since some of the office space was located in a
                        converted residential space (private residence), we
                        believe that CDE should have asked additional questions
                        to determine who actually owned the property.

                   4. The CDE program analyst for A Perfect Balance who
                      reviews and approves the sponsor’s budget, received
                      information that the deputy director was employed full
                      time at a California county agency. Although the budget
                      analyst subsequently requested an explanation regarding
                      this matter, the budget was still approved on September
                      18, 1997.

                        Since the deputy director was not available during
                        normal business hours, we believe that this condition
                        did not allow the sponsor time to properly administer
                        the CACFP. We believe a sponsor must have trained staff
                        members at the office at all times during normal
                        business hours when providers are usually caring for
                        children.

                ADMINISTRATIVE REVIEW AND AUDIT CONCERNS
                Administrative reviews and audits examine some of the same
                program compliance areas. An administrative review evaluates
                eligibility and meal requirement compliance.     However, an
                audit is to be performed in accordance with Government




USDA/OIG-A/27601-6-SF                                                   Page 20
                    auditing standards (GAS) and is larger in scope than an
                    administrative review.

                    Reviewers examine a sponsor’s records, including participant
                    eligibility, meal claim reimbursement, meal requirements, and
                    license capacity.    A limited review of the current year’s
                    budget and other fiscal information is also performed. The
                    scope of the administrative review is always the most recent
                    month for which the sponsor has submitted its final claim. In
                    addition, followup is to be performed for issues identified in
                    the previous administrative review. Administrative reviews
                    are to be performed at least once every 4 years. For sponsors
                    with over 200 sites, reviews are required once every 2 years.5

                    An audit examines the sponsor’s program and accounting records
                    and an opinion is issued based on the examination.          In
                    addition, an audit determines the extent and impact of
                    noncompliance issues on meal reimbursement claims. Auditors
                    follow an audit program which details procedures to perform.
                    CDE audits generally consist of examining a sample of program
                    and accounting records for 3 months of the scope year.

                    The audit reports issued for the 10 sponsors we reviewed had
                    either unqualified or qualified opinions.        Eight were
                    unqualified and two were qualified.   An unqualified opinion
                    states that the financial statements present fairly, in all
                    material respects, the financial position, results of
                    operations, and cash flows of the entity in conformity with
                    generally accepted accounting principles.

                    A qualified opinion states that, except for the effects of the
                    matter(s) to which the qualification relates, the financial
                    statements present fairly, in all material respects, the
                    financial position, results of operations, and cash flows of
                    the entity in conformity with generally accepted accounting
                    principles.6

                    Only one of these audits was performed by CDE.             The remainder
                    were performed by CPA firms.

                    We believe CDE did not perform adequate followup actions when
                    administrative reviews or audits detected that the sponsor may
                    not be complying with all program requirements. The CDE also
                    did not have formal procedures to ensure corrective action had
                    been implemented, and it did not question "unqualified" audit
                    reports when administrative reviews had noted potential
                    problems. Consequently, there was no assurance sponsors




  5
      7 CFR 226.6 (l), dated January 1, 1995.

  6
      AICPA Professional Standards, U.S. Auditing Standards, Section 508, dated July 1, 1997.



USDA/OIG-A/27601-6-SF                                                                  Page 21
                implemented corrective action and complied with CACFP laws and
                regulations.

                One primary cause of this lack of effectiveness by CDE to
                prevent and detect problems in the CACFP is the organizational
                structure of its oversight function. We found that the units
                within CDE responsible for the CACFP displayed a lack of
                coordination necessary to properly administer the program.
                The External Audit Unit did not always use the results of the
                administrative reviews conducted by the Field Services Unit
                during its audits, and the External Audit and Field Services
                Units did not issue their audit and administrative reports to
                the Programs Unit who would normally act on the audit findings
                and recommendations.

                Administrative Reviews
                   The administrative reviews performed by the Field Services
                   Unit disclosed material findings for 5 of the 10 sponsors
                   we subsequently audited.    If CDE had investigated these
                   problem areas, they would have found additional evidence of
                   serious program violations. However, the administrative
                   review results were rarely shared with the Program or
                   External Audit Units for followup. Because of our audits
                   of these five sponsors, all five are being investigated for
                   fraud in the CACFP.

                   For Children’s Spectrum, the 1996-97 administrative review
                   disclosed that the total administrative cost for the month
                   reviewed was reported in the claim for reimbursement for
                   centers and again in the claims for reimbursement for
                   homes.   The total administrative cost should have been
                   prorated to the centers and homes.        The sponsor was
                   required to submit adjusted claims for October 1997 through
                   January 1998. The adjusted claims were submitted to CDE in
                   July 1997.

                   For Angela’s Angels, the 1996-97 followup administrative
                   review included a finding that administrative costs claimed
                   could not be reconciled to the sponsor’s records.

                   The 1995-96 administrative review for Aladdin concluded
                   that the sponsor had an inadequate understanding of the
                   CACFP requirements and the sponsor was negligent in its
                   CACFP responsibilities.

                   The 1994-95 administrative review for CBIA included the
                   finding that provider advances were issued as a payment for
                   meals claimed rather than an advance.

                   And finally, for Sponsor D the 1993-94 administrative
                   review disclosed many fiscal findings.       The sponsor
                   exceeded its budget for several line items; advance funds




USDA/OIG-A/27601-6-SF                                                  Page 22
                   were incorrectly used, only 7 out of 713 active providers
                   were receiving advances that could be reconciled; funds
                   were not disbursed within 5 days of receipt; and the
                   sponsors record of advance funds did not agree with CDE’s
                   records.

                   Although material findings were discovered for 5 of the 10
                   sponsors during administrative reviews, the CDE did not
                   adequately followup to ensure corrective action had been
                   implemented.

                Audits
                   CDE or its contract CPA’s gave an unqualified opinion to 8
                   of the 10 sponsors.    As stated, administrative reviews
                   noted potential material problems at five of these
                   sponsors, and these five sponsors are being investigated
                   for program fraud.     Also, two of the CPA firms that
                   conducted these audits were referred to the California
                   Department of Consumer Affairs Division of Investigations
                   for substandard audit work. We found that audit results
                   were not communicated to the Program or Field Services
                   Units for followup.

                   The External Audit Unit of the CDE performed a CACFP audit
                   of 1 of the 10 sponsors that we audited. This audit was of
                   Aladdin and covered the period October 1, 1993 through
                   September 30, 1996. We concluded that CDE’s work on this
                   audit did not meet GAS and was substandard.

                   The CDE became aware of Aladdin’s serious problems on April
                   24, 1996, when the CACFP Program Unit manager expressed her
                   concern over the sponsor’s accounting procedures for
                   administrative costs.

                   On July 29, 1996, an administrative reviewer originated a
                   request for an audit.    The audit was requested because
                   there appeared to be a gross lack of program management,
                   eligibility applications were not collected annually, and
                   the sponsor did not verify meal counts.      The External
                   Audit Unit began the audit in September 1996.

                   On January 28, 1997, the auditors notified the sponsor that
                   the audit fieldwork would be completed in approximately 1
                   week.   At this time the auditors knew the findings and
                   should have informed the CACFP Program Unit so possible
                   termination of this sponsor could begin.

                   However, in March 1997, the auditors were removed from the
                   audit and reassigned to help review CPA audit reports. The
                   auditors did not notify the CACFP Program Unit about the
                   severe problems found with Aladdin until July 21, 1997, 6
                   months after the auditors completed work at the sponsor’s




USDA/OIG-A/27601-6-SF                                                  Page 23
                   office. The audit report was finally issued in October
                   1997, 8 months after the auditors completed work at the
                   sponsors office.

                   In its audit report, dated October 17, 1997, CDE reported
                   that the sponsor had unallowable administrative expenses.
                   CDE also reported that the sponsor incurred costs that were
                   not reasonable and necessary to the overall operation of
                   the sponsoring organization. Such costs included payments
                   for its own center, employee bonuses, contributions and
                   donations, security deposits, transferring funds between
                   bank accounts, and refunds submitted to the CDE for the
                   overpayment of meals claimed for reimbursement.

                   However, the CDE audit report did not quantify the amount
                   of these payments, nor were these costs disallowed. The
                   audit report merely stated that these costs were incurred
                   and recommended that the sponsor review and observe OMB
                   Circular A-122.

                   Additionally, CDE reported that this sponsor made payments
                   to the IRS for fines and penalties pertaining to a prior
                   year, and to a former landlord for office space the sponsor
                   did not occupy.     According to the audit report, these
                   expenditures were disallowed. However, CDE also did not
                   quantify these expenses in the audit report nor did it
                   explain the result of the disallowed costs.

                   CDE only recommended the sponsor pay its obligations when
                   due and observe program instructions or regulations
                   pertaining to the allowability of costs.       CDE did not
                   include recommendations for the sponsor to either pay the
                   amount of disallowed costs to its centers (since money was
                   withheld from center reimbursements to cover administrative
                   costs) or return the amount disallowed to CDE. Thus, even
                   though the costs were disallowed, the sponsor was never
                   required to repay the disallowed expenditures.

                   The CDE workpapers documented that this sponsor’s
                   administrative cost adjustments for the 3 years totaled
                   $111,857 and noted that this should be disallowed.
                   However, the audit report only disallowed payments to the
                   IRS and the sponsor’s former landlord, the total of which
                   was not quantified in the audit report.

                   The workpapers also documented that in fiscal years 1993
                   and 1994 the sponsor exceeded its budget by $93,320 and
                   noted this amount should be disallowed. However, this was
                   never mentioned in the audit report, nor was there evidence
                   CDE took any action in regards to this matter.

                   Although CDE reported in its audit report that this sponsor
                   had unallowable administrative expenses, the report did not




USDA/OIG-A/27601-6-SF                                                  Page 24
                       quantify its administrative cost findings, and CDE did not
                       act in a timely manner.   This sponsor removed itself from
                       the CACFP on September 30, 1997, 17 days before the final
                       audit report was issued.

                       CDE was well aware of the serious problems associated with
                       this sponsor in January 1997 as a result of its audit
                       fieldwork. However, CDE audit staff were reassigned and
                       fieldwork was suspended for higher priorities.       These
                       problems included the submission of false information,
                       failure to maintain adequate records, failure to disburse
                       payments to its facilities in accordance with its
                       management plan, instances of account overdrafts, and a
                       history of administrative or financial mismanagement. All
                       of these are grounds for termination from the CACFP.7 As
                       a result of CDE’s inaction in enforcing CACFP regulations,
                       Aladdin was allowed to continue to spend thousands of
                       dollars on unauthorized administrative expenses. In fact,
                       approximately $460,000 in program funds were paid to this
                       sponsor after CDE became aware of these deficiencies.

                       Even though the CDE auditors documented these numerous
                       problems, the CDE did not immediately act on these findings
                       and allowed Aladdin to continue participating in the CACFP
                       and continue to disregard regulations until the sponsor
                       self-terminated on September 30, 1997.       Had CDE acted
                       within a reasonable time after discovering the problems,
                       Aladdin could have been terminated earlier from the CACFP
                       and saved taxpayers thousands of dollars.

                    CDE STRUCTURE
                    Program regulations state that, "Each State agency shall
                    provide sufficient consultative, technical and managerial
                    personnel to administer the Program, provide sufficient
                    training and technical assistance to institutions and monitor
                    performance to facilitate expansion and effective operation of
                    the Program."8    Regulations further state that the State
                    agency shall establish procedures to annually review
                    information submitted by institutions to ensure that all
                    participating child care centers and day care homes are
                    complying with program requirements.9

                    The CDE had the responsibility to monitor the CACFP on behalf
                    of FNS. Within CDE, the External Audits Unit, Field Services
                    Unit, and Program Unit were all involved in the monitoring




  7
      7 CFR 226.6 (c), dated January 1, 1995.

  8
      7 CFR 226.6(a), dated January 1, 1995.

  9
      7 CFR 226.6(d), dated January 1, 1995.



USDA/OIG-A/27601-6-SF                                                      Page 25
                process.    The External Audit Unit conducted audits to
                determine sponsor’s compliance with program requirements. The
                Field Services Unit performed administrative reviews to verify
                the sponsor’s latest meal claim reimbursement and review the
                most current month of operations. In addition to approving
                sponsors’ annual budgets, the Programs Unit interacted with
                sponsors on a daily basis, provided technical assistance, and
                had the authority to take administrative action against a
                sponsor.

                Interviews with External Audit and Field Services Unit
                personnel disclosed that the units worked independently
                without consulting or sharing pertinent information with each
                other.    Additionally, the Program Unit did not receive
                pertinent information from the External Audit Unit and from
                the Field Services Unit.     Also, there was no documented
                communication (i.e. memos, meeting minutes, etc.) between the
                three units.

                COLLECTION OF OVERPAYMENTS
                The CDE collects overpayments due from sponsors by offsetting
                the amounts owed from future claims for reimbursements. The
                amounts   owed  are   usually   the  result   of   ineligible
                administrative or meal claims identified through an audit or
                administrative review, or the result of outstanding program
                advances. In our Management Alert, dated July 24, 1998, we
                reported our concern over this practice. Our primary concern
                was that CDE took the food funds, which were owed to all
                providers and child care centers, to settle the debts owed by
                the sponsor, a particular provider, or a particular center.
                CDE did not determine who actually owed the funds (i.e.,
                sponsor, provider, or center).

                During our audit of Aladdin, we noted that CDE offset the
                August 1997 payment to the sponsor by $34,383. This was to
                cover part of an $208,160 overpayment of meal reimbursements
                that had been identified during an audit performed by CDE
                auditors covering FY’s 1994, 1995, and 1996.      During the
                period March 1996 through December 1997, CDE offset another
                $83,889. The offsets against this sponsor totaled $118,271.

                In this case, CDE recovered overpayments identified as far
                back as FY 1994 with payments due to providers and centers in
                1997. CDE made no effort to track the overpayments to the
                party that actually caused the problem--a provider, a center,
                or the sponsor itself. In fact, as we know in the case of
                this sponsor, the practice of offsetting future reimbursements
                penalizes all the sponsor’s providers regardless of their
                involvement in the ineligible activities.




USDA/OIG-A/27601-6-SF                                                  Page 26
                CDE’S KEY ACTIONS
                In response to our ongoing audits, CDE submitted an action
                plan dated April 17, 1998. We reviewed the list of 29 key
                actions which addressed some of the audit issues reported by
                OIG (see exhibit E). However, the plan did not specifically
                address the CACFP, and many of the actions were intended to
                improve oversight of all Child Nutrition Food Distribution
                Division (CNFDD) programs. While we agree with the action
                plan, additional steps must be taken to improve CDE’s
                oversight of CACFP. Although some of the actions listed have
                been implemented, many have not.

                We acknowledge that CDE addressed some key issues, such as
                improving the audit and review process. However, many of the
                actions intended to improve oversight have not yet been
                implemented. For example, the list of actions states that CDE
                "published a formal, comprehensive audit review procedures
                manual for ... audit staff." This manual was last updated in
                March 1997 and does not include the revised OMB Circular
                A-133, FASB 116, or FASB 117, all critical to the audit of
                sponsors.    Additionally, the list also stated that CDE
                "developed draft procedures for review and referencing."
                Government auditing standards require an internal quality
                control system. Currently CDE does not have formal procedures
                for a quality control review of audit reports. Until CDE can
                establish formal audit procedures to incorporate OMB Circular
                A-133 and Government Auditing Standards, CDE audits will
                continue to be substandard and ineffective.

                The list of actions also stated that CDE contracted with CPAs
                to conduct peer quality reviews of CPAs who audit sponsors.
                However, this has not occurred for any audits of sponsors who
                receive CACFP funds.

                Also, CDE "... added six new audit positions effective 7/1/97
                ..." to increase audits and peer quality reviews. However,
                there are currently eight audit positions open at the CNFDD,
                so we believe it is imperative these quality reviews of CPAs
                are performed to ensure the integrity of the CPA audits, a key
                element of monitoring CACFP.

                Actions that have been implemented include installation of a
                "toll-free whistle blower hotline", assigning auditors to
                accompany administrative reviewers during sponsor reviews, and
                providing audit, program, and field staff with a list of "red
                flags" for fraud.

                CDE has also "assigned additional audit staff to work with
                field staff to conduct field reviews of suspected fraudulent
                agencies."    In addition, CDE instituted a policy of
                unannounced visits to child care centers and family day care




USDA/OIG-A/27601-6-SF                                                  Page 27
                    homes. We believe these actions will improve oversight of
                    problem sponsors.

                    Coordination between CDE’s External Audit and Field Services
                    Units must improve significantly to ensure adequate monitoring
                    of CACFP.     Timely followup by CDE is crucial for all
                    administrative review and audit findings to ensure corrective
                    action has been implemented by the sponsor. We found that
                    only monetary findings ever received followup action, and
                    rarely was followup performed for administrative review
                    findings. In some of the audits and reviews, the nonmonetary
                    findings might have been indicative of more significant
                    sponsor problems.    We also believe that FNS needs to act
                    aggressively in the State to ensure that CDE improves its
                    oversight of the program.

                    Also, audits were not always performed timely, exceeding the
                    requirement that the report be completed no later than 13
                    months after the end of the recipient’s fiscal year10, and
                    administrative reviews were only required at a minimum of
                    every 2 years. We believe that this and the lack of followup
                    also contributed to sponsor abuse. The External Audit Unit
                    and the Field Services Unit must coordinate their efforts to
                    ensure followup is completed on all findings.

                    If CDE is unable to reform its oversight function to any
                    satisfactory measure, FNS should act unilaterally to restore
                    integrity to the CACFP in California.


         RECOMMENDATION NO. 2a

                    Instruct the CDE to establish a management and accountability
                    process which ensures coordination between the Child Nutrition
                    and Food Distribution Division units and the Audits and
                    Investigations Division.

                    FNS Response
                    In its written response to the draft report, dated February 3,
                    1999, FNS agreed with this recommendation.

                    OIG Position
                    To accept FNS’ management decision on this recommendation, we
                    will need to be advised of the estimated completion date of
                    the CACFP Management Evaluation which will determine if the




  10
       OMB Circular A-133, Paragraph 15(h), dated March 1990.



USDA/OIG-A/27601-6-SF                                                      Page 28
                CDE   has   established     an   acceptable   management   and
                accountability process.


      RECOMMENDATION NO. 2b

                Instruct the CDE to develop formal procedures to ensure
                corrective actions recommended in administrative reviews and
                audit reports are implemented by the sponsors.

                FNS Response
                In its written response to the draft report, dated February 3,
                1999, FNS agreed with this recommendation.

                OIG Position
                To accept FNS’ management decision on this recommendation, we
                will need to be advised of the date when the CDE expects to
                implement formal procedures to ensure corrective actions
                recommended in administrative reviews and audit reports are
                implemented by the sponsors.


      RECOMMENDATION NO. 2c

                Instruct the CDE to allow only one day care home agreement per
                sponsor and take action to ensure that all sponsors currently
                participating in the program have only one day care home
                agreement.

                FNS Response
                In its written response to the draft report, dated February 3,
                1999, FNS agreed with this recommendation.

                OIG Position
                To accept   FNS’ management decision on this recommendation, we
                will need   to be advised of the date when the CDE expects to
                implement    its new methods to allow only one day care home
                agreement   per sponsor.




USDA/OIG-A/27601-6-SF                                                   Page 29
      RECOMMENDATION NO. 2d




                Instruct the CDE to thoroughly review each sponsor’s budget
                and obtain support for all questionable amounts listed on the
                budget.

                FNS Response
                This recommendation was added after the FNS response to the
                official draft audit report was received.

                OIG Position
                To accept FNS’ management decision on this recommendation, we
                will need to be advised of the date when the CDE expects to
                implement its new methods to support questionable budget
                amounts.




USDA/OIG-A/27601-6-SF                                                 Page 30
EXHIBIT A -                  SUMMARY OF AUDITS AND INVESTIGATIONS IN
                             CALIFORNIA

                           Summary of Audits and Investigations in California

                           Sponsor              Types of Program Deficiencies Identified                    Results
   Sponsor Reviews        Determined
                           Seriously   Monitoring/     Administrative    Provider     Fictitious    Sponsor     Referred For
                           Deficient    Training          Costs          Payments     Providers    Terminated   Investigation
Angela’s Angels               X            X                 X               X             X           X               X
Preschool, Inc.
Pacific Asian American        X            X                 X                             X           X               X
Family Care, Inc.
Community Business            X            X                 X               X             X                           X
Improvement
Association, Inc.
Aladdin Child Care            X            X                 X               X                         X               X
Services, Inc.
Children’s Spectrum           X            X                 X                                                         X
Child Care
Services,Inc.
A Perfect Balance, Inc.       X            X                 X               X

Sponsor A                     X            X                 X                                                         X

Sponsor B                     X            X                 X

Sponsor C                     X            X                 X                                                         X

Sponsor D                     X            X                 X                                         X               X

     TOTAL                   10            10                10              4             3           4               8




                                                                                                   Exhibit A - Page 1 of 1


USDA/OIG-A/27601-6-SF                                                                                                 Page 31
EXHIBIT B -                 CHARACTERISTICS OF SPONSORS DETERMINED TO BE
                            SERIOUSLY DEFICIENT

Sponsor      CACFP Family Leased     Outside           Audit        Admin. Audit and   Centers   Personal     False       Non-
              Only  Run   Vehicles Employment         Opinion      Reviews- Admin.-              Expenses    Claims    disclosed
                                                                   Material Review                  (i.e.,              Related
                                                                   Findings Follow               vacation,                Party
                                                                    Noted     up1                  food,               Transact.
                                                                                                  clothes,              for Rent
                                                                                                  tuition)

Angela’s       X       X                              Qualified       X       No         X                     X
Angels

PAAM           X       X                      X     Unqualified2              No         X          X          X          X

CBIA           X       X        X             X      Unqualified      X       No         X                     X          X

Aladdin        X       X                    X3        Qualified       X       No         X          X          X4

Children’s     X                X             X      Unqualified      X       No         X
Spectrum

A Perfect      X                              X      Unqualified              No         X
Balance

Sponsor A      X       X                             Unqualified              No                    X

Sponsor B                                            Unqualified              No

Sponsor C      X       X        X             X      Unqualified              No                    X                     X

Sponsor D      X       X                             Unqualified      X       No                    X          X          X




                   1
                   Only monetary follow-up was performed.

                   2
                   CPA audit report not accepted by the CDE because the report did not meet minimum requirements.

                   3
                   Sponsor also owns a day care center that it operates.

                   4
                   To be determined by OIG.




                                                                                                 Exhibit B - Page 1 of 1


USDA/OIG-A/27601-6-SF                                                                                                 Page 32
EXHIBIT C -                  CACFP MANAGEMENT ALERTS ISSUED

                   Name of Sponsor                                             Management Alerts

 Angela’s Angels Preschool, Inc.                    None Issued


 Pacific Asian American Family Care, Inc.           November 18, 1996
                                                     Sponsor failed to provide records.

                                                    December 4, 1996
                                                     Potential conflict of interest involving a CDE employee and the
                                                    sponsor.


 Community Business Improvement Association, Inc.   October 15, 1997
                                                     A key employee of the sponsor admitted participating in a scheme to
                                                    misappropriate CACFP funds by submitting false claims for a
                                                    nonexistent provider.

                                                    October 29, 1997
                                                      CDE had taken funds which were owed to child care centers for their
                                                    food expenses to settle the debt owed by the sponsor.

                                                    February 24, 1998
                                                     The sponsor was consistently late in reimbursing its providers and
                                                    centers for the cost of meals served to children.

 Children’s Spectrum Child Care Services, Inc.      March 5, 1998
                                                      The executive director of the sponsor, who received a salary from
                                                    the California CACFP, actually resided, and was employed in the State
                                                    of Wisconsin. In addition, the sponsor also claimed the cost of a
                                                    leased vehicle used by the executive director, while he lived in
                                                    Wisconsin.

 Aladdin Child Care Services, Inc.                  July 24, 1998
                                                      The CDE collected overpayments due from sponsors by offsetting
                                                    the amounts owed from future claims for reimbursements, potentially
                                                    harming the providers not responsible for the overpayments.

 A Perfect Balance, Inc.                            None Issued


 Sponsor A                                          None Issued


 Sponsor B                                          None Issued


 Sponsor C                                          None Issued


 Sponsor D                                          None Issued


 Review of State Agency Oversight                   April 29, 1998
                                                      CDE improperly claimed CACFP audit funds (2-percent funds) for
                                                    administrative reviews, and did not have an adequate system in place
                                                    to support claims for audit staff charged to this 2-percent audit funding
                                                    source.




                                                                                               Exhibit C - Page 1 of 1


USDA/OIG-A/27601-6-SF                                                                                              Page 33
EXHIBIT D -                     RESULTS OF PROVIDER VISITS

               Sponsor                 Attempted      Review         One or                   Type of Concerns Noted1
                                       Provider/     Completed        More
                                         Center                     Concerns      Record-     Possible     Health       Meal
                                         Visits                      Noted        keeping      Over-         or      Components
                                                                                               Claims      Safety
                                                                                                           Issues

 Angela’s Angels                          158            125            75           48          X           X

 Pacific Asian American Family            108             86            49           40          X           X
 Care, Inc.

 Community Business                       119             57            44           34          X                         X
 Improvement Association, Inc.

 Aladdin Child Care Services,             N/A            N/A           N/A          N/A         N/A         N/A           N/A
 Inc.

 Children’s Spectrum Child Care           270            187           122          110          X           X             X
 Services

 A Perfect Balance, Inc.                   43             40            24           19          X           X             X

 Sponsor A                                311            257           182          149          X           X             X

 Sponsor B                              No info
                                         yet

 Sponsor C                              No info
                                         yet

 Sponsor D2                               N/A            N/A           N/A          N/A         N/A         N/A           N/A

                TOTAL                    1,009           752            496         400
                                                                       (66%)       (53%)




  1
      For recordkeeping concerns, we counted specific instances. For the other concerns, we noted the existence of deficiencies.

  2
      OIG site visit was not performed because the sponsor was terminated from the program.




                                                                                                         Exhibit D - Page 1 of 1


USDA/OIG-A/27601-6-SF                                                                                                     Page 34
EXHIBIT E -              CDE’S KEY ACTIONS

                                          State Oversight Actions
                               Child Nutrition and Food Distribution Division
                                                 April 1998

 1.   We added six new audit positions effective 7/1/97, and submitted Budget Change Proposals (in
      conjunction with CDD) for six more audit positions.

 2.   We established three investigative Auditor positions, and sent the fraud investigators through a 12-
      week intensive Peace Officer Standards and Training Academy. We have requested three more
      investigations for the 1999 state fiscal year.

 3.   We published a formal, comprehensive audit review procedures manual for our audit staff to
      ensure that our audit review processes and procedures are implemented in a consistent and
      thorough manner.

 4.   We established a procedure of assigning a staff administrator to close out the operations of
      agencies we terminated for fraud to ensure proper closeout, evidence collection, and timely and
      accurate payment to providers.

 5.   We contract with the State Department of Finance for auditors to assist in peak workload periods.

 6.   We established a professional working relationship with the USDA Investigative Unit of the Office
      of Inspector General to coordinate and collaborate on sensitive fraud cases.

 7.   We installed a toll-free whistle blower hot line to encourage identification and report of potential
      fraudulent activities.

 8.   We developed and are conducting training for our field, audit, program, and audit closure staff on
      early warning detection of fraud; proper procedures to follow when fraud is found or expected;
      how to handle calls or other information from individuals reporting fraud; and how to coordinate
      internally the information we receive to ensure timely referral, response, and corrective action.

 9.   We established clear work production standards for audit staff who perform desk reviews. We will
      also develop production standards for field audits.

 10. We established program policy committees that meet regularly to ensure coordination and proper
     followup of reviews, complaints, and problem agencies.

 11. We established procedures to increase the presence of auditors with our field and program staff
     on reviews needing strong fiscal scrutiny.

 12. We hired private CPA’s to conduct peer quality reviews of other private CPA work to ensure that
     the work is being done correctly and in accordance with proper auditing practices and procedures.

 13. We conduct semi-annual (possibly annual in the future) training workshops for private CPA’s to
     help ensure that annual independent audits are performed in accordance with proper program and
     auditing practices and procedures.

 14. We are reevaluating our internal organizational structure and our compliance review procedures
     and responsibilities relating to field, program, audits, and audit closure functions.

 15. We have established and implemented a policy of increasing the number and frequency of
     unannounced visits to child care centers and family day care homes.



                                                                                     Exhibit E - Page 1 of 2


USDA/OIG-A/27601-6-SF                                                                                Page 35
EXHIBIT E -             CDE’S KEY ACTIONS

                                          State Oversight Actions
                               Child Nutrition and Food Distribution Division
                                                 April 1998

 16. We have instituted new monitoring procedures to ensure the proper implementation of corrective
     action plans.

 17. With USDA approval, we have added more criteria to the minimum federal requirements for
     screening applications for the Child Care Food Program to help ensure the integrity and
     administrative viability of organizations applying to participate in the Child Care Food Program.

 18. We have requested a peer review of our audit functions by the California State Auditor’s
     Association. We expect that peer review possibly by September 1998 depending on availability of
     peer review team.

 19. We have assigned additional audit staff to work with field staff to conduct field reviews of
     suspected fraudulent agencies, and will use the "sweep" approach to conduct such reviews.

 20. We have expanded the number of field reviews conducted by our audit staff by redirecting staff
     who previously conducted only desk reviews of CPA audits.

 21. We provide a regularly updated list of "red flags" for fraud to all of our audit, program, and field
     staff.

 22. We reorganized our audit structure so all auditors are assigned to conduct audits of all child
     nutrition programs, rather than specialize in conducting audits of only one or a few child nutrition
     programs.

 23. Reports and a sample of work papers are reviewed by the Administrator, Audits, and
     Administrative Services, before reports are issued.

 24. We will spread review and referencing workload for field audits reports between other auditors
     instead of concentrating all reviews and referencing with primarily one auditor.

 25. Reviewers will ensure all reports and findings are "referenced" in accord with normal audit
     procedure. OEA developed draft procedures for review and referencing.

 26. We train field auditors to look for fraud indicators, "red flag" those as part of field work, then issue
     "management alerts" as necessary to program staff and the Division Administrator of program area
     involved.

 27. Audit findings will be aged with 60-day, 180-day, and one-year followups to ensure corrective
     action taken.

 28. Audit Programs will be reviewed annually and before the start of each audit, then approved by the
     Administrator, Audits, and Administrative Services.

 29. Food Distribution staff have begun working with audit and investigation staff to identify and review
     certain commodity processors.




                                                                                    Exhibit E - Page 2 of 2


USDA/OIG-A/27601-6-SF                                                                                Page 36
EXHIBIT F -      FNS’ WRITTEN RESPONSE TO THE DRAFT REPORT




                                              Exhibit F - Page 1 of 6


USDA/OIG-A/27601-6-SF                                       Page 37
EXHIBIT F -      FNS’ WRITTEN RESPONSE TO THE DRAFT REPORT




                                              Exhibit F - Page 2 of 6


USDA/OIG-A/27601-6-SF                                       Page 38
EXHIBIT F -      FNS’ WRITTEN RESPONSE TO THE DRAFT REPORT




                                              Exhibit F - Page 3 of 6


USDA/OIG-A/27601-6-SF                                       Page 39
EXHIBIT F -      FNS’ WRITTEN RESPONSE TO THE DRAFT REPORT




                                              Exhibit F - Page 4 of 6


USDA/OIG-A/27601-6-SF                                       Page 40
EXHIBIT F -      FNS’ WRITTEN RESPONSE TO THE DRAFT REPORT




                                              Exhibit F - Page 5 of 6


USDA/OIG-A/27601-6-SF                                       Page 41
EXHIBIT F -      FNS’ WRITTEN RESPONSE TO THE DRAFT REPORT




                                              Exhibit F - Page 6 of 6


USDA/OIG-A/27601-6-SF                                       Page 42
